           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

    ACCUMULATED FUNDS PAYABLE
     TO BENEFICIARIES OR THEIR
      REPRESENTATIVE PAYEES

    December 2012   A-09-12-21236




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM


Date:      December 11, 2012                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Accumulated Funds Payable to Beneficiaries or Their Representative Payees
           (A-09-12-21236)


           OBJECTIVE
           Our objective was to evaluate the Social Security Administration’s (SSA) controls over
           the payment of accumulated funds to beneficiaries or their representative payees.

           BACKGROUND
           SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
           under Title II of the Social Security Act. 1 This program provides monthly benefits to
           retired and disabled workers, including their dependents and survivors.

           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted SSA the
           authority to appoint representative payees to receive and manage these beneficiaries’
           benefit payments. A representative payee may be an individual or an organization.
           SSA selects representative payees for OASDI beneficiaries when representative
           payments would serve the individual’s interests. 2

           According to SSA policy, accumulated funds are benefits that (1) accrued before an
           initial award, (2) were withheld pending the selection of a representative payee, or
           (3) were conserved and returned to SSA by a former representative payee. If a
           beneficiary has no representative payee, SSA is required to pay all accumulated funds
           directly to the beneficiary unless the selection of a representative payee is pending, a
           capability determination is pending, or a beneficiary requested installment payments. 3



           1
               Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
               Social Security Act §§ 205(j)(1)(A) and 42 U.S.C. §§ 405(j)(1)(A).
           3
               SSA, POMS, GN 00603.070 (effective June 4, 2007).
Page 2 - The Commissioner


If a beneficiary requires a representative payee and the accumulated funds total less
than $4,000, SSA will pay the accumulated funds to the representative payee without
any further development. If the accumulated funds total more than $4,000, SSA must
evaluate certain representative payees’ 4 ability to handle the benefits.

SSA’s automated system generates alerts to notify employees when it suspends
payments to a beneficiary pending the selection of a new representative payee.
However, once benefits are resumed, there are no automated controls to ensure
accumulated funds are paid either to a new representative payee or to the beneficiary.
To ensure accumulated funds are paid, SSA employees must establish a manual diary
or other control.

We identified 8,265 Title II beneficiaries in current pay status who had accumulated
funds that SSA had not paid to the beneficiaries or their representative payees. From
this population, we selected a random sample of 200 beneficiaries for review.

RESULTS OF REVIEW
SSA needs to improve controls to ensure it properly and timely pays accumulated funds
to Title II beneficiaries or their representative payees. Based on our random sample,
we estimate that

•   4,174 beneficiaries had accumulated funds totaling approximately $29.9 million that
    SSA had not paid to the beneficiaries or their representative payees;

•   909 beneficiaries had approximately $18.6 million in accumulated funds that were
    correctly paid but not timely; 5 and

•   248 representative payees were paid accumulated funds totaling approximately
    $4 million, but SSA had not evaluated their ability to manage the funds, as required.

We are 90-percent confident the number of

•   beneficiaries with accumulated funds that SSA had not paid to the beneficiaries or
    their representative payees ranged from 3,681 to 4,666, and the amount of benefits
    payable ranged from $23.3 to $36.5 million;




4
 Any representative payee who is not the beneficiary’s close relative with custody of the beneficiary, the
beneficiary’s legal guardian, a bank or trust company, or a social agency or public nonprofit institution
with certain principal activities. SSA, POMS, GN 00502.186 A (effective June 4, 2007).
5
  For our review, we used a standard of 90 days to determine whether SSA paid accumulated funds
timely.
Page 3 - The Commissioner


•   beneficiaries with accumulated funds that were correctly paid but not in a timely
    manner ranged from 629 to 1,263, and the amount of benefits ranged from $9.5 to
    $27.7 million; and

•   representative payees whom SSA paid without evaluating their ability to handle the
    benefits ranged from 110 to 479, and the amount of benefits paid ranged from
    $1.2 to $6.9 million (see Appendix C).

This occurred because SSA did not always (1) establish manual diaries to control the
payment of accumulated funds, (2) pay accumulated funds to representative payees
when required, or (3) pay all accumulated funds due and payable upon the selection of
a representative payee.

Of the 200 beneficiaries in our sample, SSA did not pay 101 beneficiaries (50.5 percent)
or timely pay 22 beneficiaries (11 percent). We also found that SSA did not document,
as required, whether representative payees could manage the accumulated funds for
6 beneficiaries (3 percent). For the remaining 71 beneficiaries (35.5 percent), SSA had
correctly paid the accumulated funds. We summarize the results of our review below.



                   Accumulated Funds Payable to Beneficiaries
                        or Their Representative Payees
                         Based on Random Sample of 200 Beneficiaries


       Not Timely Paid
                                                                        Not Paid (50.5%)
            (11%)




       Correctly Paid                                                  No Documentation
         (35.5%)                                                            (3%)
Page 4 - The Commissioner


ACCUMULATED FUNDS NOT PAID

SSA did not pay accumulated funds for 101 (50.5 percent) of the 200 beneficiaries in
our sample. As a result, SSA improperly withheld $724,401 for these beneficiaries.
The average time SSA did not pay the benefits was about 6.8 years (2,499 days). 6
For one beneficiary, SSA had not paid accumulated funds 28 years after they were due
and payable. The beneficiary had several representative payees during this period;
however, SSA never paid the accumulated funds.



                                                     Accumulated Funds Not Paid
                                                  Based on Random Sample of 200 Beneficiaries

                                   70
         Number of Beneficiaries




                                   60
                                   50
                                   40
                                   30
                                   20
                                   10
                                    0
                                        Under 5       6 to 10    11 to 15    16 to 20    21 to 25   Over 26
                                                          Number of Years Benefits Were Not Paid




If a beneficiary has no representative payee, SSA policy requires that accumulated
funds be paid directly to the beneficiary in a lump sum unless the selection of a
representative payee is pending, a capability determination is pending, or a beneficiary
requested installment payments. 7 SSA may withhold accumulated funds and pay
current benefits directly to beneficiaries on an interim basis. When this occurs, SSA
employees must establish manual diaries every 90 days to assess how the beneficiaries
are handling their funds. After 270 days, SSA considers beneficiaries capable of
managing their own benefits if they are using the benefits to meet their needs. SSA
should then pay the accumulated funds to the beneficiary. 8




6
    The mean was 6.8 years or 2,499 days. The median was 3.5 years or 1,294 days.
7
    SSA, POMS, GN 00603.070 B.2 (effective June 4, 2007).
8
    SSA, POMS, GN 00504.105 B.2 (effective May 18, 2012).
Page 5 - The Commissioner


If SSA determines a beneficiary should not be paid directly, it must select a
representative payee. 9 Upon selection of a representative payee, SSA employees
must pay current benefits and accumulated funds to the representative payee. 10

Of the 101 beneficiaries, SSA selected representative payees for 60 and paid
41 directly. None of the 41 beneficiaries was pending the selection of a representative
payee, was pending a capability determination, or had requested installment
payments. 11 We found no evidence that SSA had determined whether the beneficiaries
were capable of managing their own benefits. For the 60 beneficiaries who had
representative payees, SSA had paid the current benefits but did not pay the
accumulated funds.

At the time of our review, SSA did not have manual diaries to monitor the payment of
accumulated funds for all 101 beneficiaries. Without manual diaries, the accumulated
funds may never be paid.

For example, SSA awarded disability benefits to a beneficiary effective August 2004.
SSA determined the beneficiary may have needed a representative payee, but it
neither initiated the selection process nor determined whether the beneficiary was
able to manage his finances. Beginning in November 2006, SSA paid $1,477 in
monthly payments directly to the beneficiary. However, SSA did not pay $38,802 in
accumulated funds for the period August 2004 through October 2006. We found no
evidence there were any manual diaries pending for the beneficiary. As of June 2012,
SSA had not paid the accumulated funds to the beneficiary.

ACCUMULATED FUNDS NOT PAID TIMELY

SSA did not timely pay accumulated funds for 22 (11 percent) of the 200 beneficiaries
in our sample. 12 As a result, these beneficiaries did not timely receive $450,207 in
benefit payments. As depicted in the chart below, SSA had not paid accumulated funds
for as long as 444 days after they were due and payable. The average time SSA did
not pay the benefits was 197 days. 13




9
    SSA, POMS, GN 00502.010 (effective February 25, 2003).
10
  SSA, POMS, GN 00603.070 B.1 (effective June 4, 2007) and SSA, POMS, GN 00502.186 (effective
June 4, 2007).
11
     One of the 41 beneficiaries was paid directly on an interim basis.
12
   For our review, we used a standard of 90 days to determine whether SSA paid accumulated funds
timely.
13
     The mean was 197 days. The median was 166 days.
Page 6 - The Commissioner



                                             Accumulated Funds Not Paid Timely
                                              Based on Random Sample of 200 Beneficiaries


                                   10
         Number of Beneficiaries




                                    8

                                    6

                                    4

                                    2

                                    0
                                        91 to 150      151 to 200        201 to 250           Over 251
                                                      Number of Days Benefits Were Not Paid




SSA policy states that accumulated funds shall generally be included in the first
payment or paid as soon as possible after the selection of a new representative
payee. 14 Of the 22 beneficiaries, SSA selected representative payees for 7 and paid
15 directly.

For example, in August 2011, SSA awarded disability benefits to an individual with a
date of entitlement beginning in January 2008. At that time, SSA paid current benefits
directly to the beneficiary and withheld $75,469 in accumulated funds. On two
occasions, the beneficiary inquired about the payment of the accumulated funds;
however, SSA did not take any action to notify the beneficiary that she needed a
representative payee until March 2012. The beneficiary’s spouse applied 2 days later,
and SSA selected him as her representative payee. In April 2012, SSA paid the
accumulated funds—but not until 224 days had elapsed.




14
     SSA, POMS, GN 00603.070 B.1 (effective June 4, 2007).
Page 7 - The Commissioner


PAYMENT OF ACCUMULATED FUNDS IN EXCESS OF $4,000

SSA did not determine whether representative payees15 for 6 (3 percent) of the
200 beneficiaries in our sample could manage accumulated funds over $4,000. We
determined that SSA paid these representative payees $97,546 in benefits. The
average payment was $16,258. 16 However, we found no evidence that SSA had
evaluated the payees’ ability to handle the benefits.

SSA policy states that if a beneficiary requires a representative payee and the
accumulated funds are less than $4,000, SSA will pay the accumulated funds to the
representative payee without further development. However, if the accumulated funds
exceed $4,000, SSA must evaluate certain representative payees’ ability to handle the
benefits. Specifically, SSA must determine how the representative payees plan to use
the money, determine whether they have experience managing large sums of money,
and obtain evidence of the representative payees’ ability to handle their own funds.
SSA must document its payment decision, including the factors that led to the decision,
in its Representative Payee System. 17

Of the six representative payees, two were friends or neighbors and four were relatives
who did not have custody of the beneficiary. As a result, SSA should have evaluated
these representative payees’ ability to manage the beneficiaries’ funds before it paid the
accumulated funds.

For example, SSA awarded disability benefits to a beneficiary effective July 2008.
In June 2011, SSA selected the beneficiary’s aunt as his representative payee and
paid $705 in monthly payments. However, SSA did not pay $24,514 in accumulated
funds. The aunt did not have custody of the beneficiary. Therefore, SSA should have
evaluated her ability to handle the accumulated funds. We found no evidence that SSA
determined whether the aunt could manage the funds. In November 2011, SSA paid
the accumulated funds to the aunt.




15
  Any representative payee who is not the beneficiary’s close relative with custody of the beneficiary, the
beneficiary’s legal guardian, a bank or trust company, or a social agency or public nonprofit institution
with certain principal activities. SSA, POMS, GN 00502.186 A (effective June 4, 2007).
16
     The mean was $16,258. The median was $17,563.
17
  SSA, POMS, GN 00502.186 B (effective June 4, 2007) and SSA, POMS, GN 00603.070 B.1 (effective
June 4, 2007).
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
SSA needs to improve controls to ensure it properly and timely pays accumulated funds
to Title II beneficiaries or their representative payees. We estimate that SSA (1) had not
paid about $29.9 million in accumulated funds to 4,174 beneficiaries; (2) did not timely
pay about $18.6 million in accumulated funds to 909 beneficiaries; and (3) paid about
$4 million in accumulated funds to 248 representative payees but had not evaluated
their ability to handle the benefits, as required (see Appendix C).

We recommend that SSA:

1. Take appropriate action to pay the accumulated funds for the 101 Title II
   beneficiaries identified by our audit.

2. Develop a cost-effective method for identifying and paying, as appropriate, Title II
   beneficiaries who have unpaid accumulated funds.

3. Remind employees to review the ability of certain representative payees to manage
   accumulated funds over $4,000 and document the results of its review in its records.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgment
                                                       Appendix A

Acronyms
MBR      Master Beneficiary Record
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                       Appendix B

Scope and Methodology
From a data extract from the Social Security Administration’s (SSA) Master Beneficiary
Record (MBR), we identified a population of 8,265 Title II beneficiaries in current pay
status who had accumulated funds that SSA had not paid as of September 2011. From
this population, we selected a random sample of 200 beneficiaries for review.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, Code of Federal
    Regulations, SSA’s Program Operations Manual System, and other policy
    memorandums;

•   interviewed SSA employees from the Offices of Operations and Systems; and

•   reviewed queries from SSA’s MBR, Supplemental Security Record, Payment History
    Update System, and Online Retrieval System.

We determined the computer-processed data were sufficiently reliable for our intended
use. We conducted tests to determine the completeness and accuracy of the data.
These tests allowed us to assess the reliability of the data and achieve our audit
objective.

We performed audit work in Richmond, California, and Baltimore, Maryland, between
March and August 2012. The entities audited were the Offices of Operations and
Systems under the Offices of the Deputy Commissioners for Operations and Systems.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
                                                                                    Appendix C

Sampling Methodology and Results
From the Social Security Administration’s Master Beneficiary Record, we obtained a
data extract of 8,265 Title II beneficiaries in current pay status who had accumulated
funds that SSA had not paid as of September 2011. We selected a random sample of
200 beneficiaries to determine whether SSA had adequate controls over the payment
of accumulated funds to beneficiaries or their representative payees.

Accumulated Funds Not Paid

SSA did not pay accumulated funds for 101 (50.5 percent) of the 200 beneficiaries in
our sample. As a result, SSA withheld $724,401 for these beneficiaries. Projecting the
results to our population of 8,265 beneficiaries, we estimate that SSA had improperly
withheld about $29.9 million in accumulated funds to 4,174 beneficiaries.

Accumulated Funds Not Paid Timely

SSA did not timely pay accumulated funds for 22 (11 percent) of the 200 beneficiaries
in our sample. 1 As a result, these beneficiaries did not timely receive $450,207 in
benefit payments. Projecting the results to our population of 8,265 beneficiaries, we
estimate that SSA had not paid timely about $18.6 million in accumulated funds to
909 beneficiaries.

Payment of Accumulated Funds in Excess of $4,000

SSA did not determine whether certain representative payees 2 could manage
accumulated funds over $4,000 for 6 (3 percent) of the 200 beneficiaries in our sample.
We determined that SSA paid $97,546 in benefits to these representative payees.
Projecting the results to our population of 8,265 beneficiaries, we estimate that SSA
paid about $4 million to 248 representative payees without determining whether they
could handle the benefits, as required.




1
  For our review, we used a standard of 90 days to determine whether SSA paid accumulated funds
timely.
2
 Any representative payee who is not the beneficiary’s close relative with custody of the beneficiary, the
beneficiary’s legal guardian, a bank or trust company, or a social agency or public nonprofit institution
with certain principal activities. SSA, POMS, GN 00502.186 A (effective June 4, 2007).


                                                   C-1
The following tables provide the details of our sample results and statistical projections.

                           Table C-1 – Population and Sample Size

               Description                                        Number of Beneficiaries
 Population Size                                                          8,265
 Sample Size                                                                200

                          Table C-2 – Accumulated Funds Not Paid

                                              Number of                        Amount of
         Description                         Beneficiaries                      Benefits
 Sample Results                                   101                            $724,401
 Point Estimate                                 4,174                         $29,935,853
 Projection - Lower Limit                       3,681                         $23,349,150
 Projection - Upper Limit                       4,666                         $36,522,556
 Note: All statistical projections are at the 90-percent confidence level.

                      Table C-3 – Accumulated Funds Not Paid Timely

                                              Number of                        Amount of
         Description                         Beneficiaries                      Benefits
 Sample Results                                    22                            $450,207
 Point Estimate                                   909                         $18,604,798
 Projection - Lower Limit                         629                          $9,521,454
 Projection - Upper Limit                       1,263                         $27,688,142
 Note: All statistical projections are at the 90-percent confidence level.

           Table C-4 – Payment of Accumulated Funds in Excess of $4,000

                                              Number of                       Amount of
         Description                         Beneficiaries                     Benefits
 Sample Results                                     6                            $97,546
 Point Estimate                                  248                          $4,031,088
 Projection - Lower Limit                        110                          $1,204,884
 Projection - Upper Limit                        479                          $6,857,293
 Note: All statistical projections are at the 90-percent confidence level.




                                                   C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      December 3, 2012                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Accumulated Funds Payable to Beneficiaries or
           Their Representative Payees” (A-09-12-21236) —INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ACCUMULATED FUNDS PAYABLE TO BENEFICIARIES OR THEIR
REPRESENTATIVE PAYEES” (A-09-12-21236)


Recommendation 1

Take appropriate action to pay the accumulated funds for the 101 Title II beneficiaries identified
by our audit.

Response

We agree.

Recommendation 2

Develop a cost-effective method for identifying and paying, as appropriate, Title II beneficiaries
who have unpaid accumulated funds.

Response

We agree.

Recommendation 3

Remind employees to review the ability of certain representative payees to manage accumulated
funds over $4,000 and document the results of its review in its records.

Response

We agree.




                                               D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgment
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgment

In addition to those named above:

   Tim Meinholz, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/
or contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-09-12-21236.
                        Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.

                                               Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.

                                         Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.

                           Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.

                                      Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.

                         Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
